HHS/OIG-Audit--"Review of the Food and Drug Administration's Citizen Petition Process, (A-15-97-50002)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Food and Drug Administration's Citizen Petition Process,"
(A-15-97-50002)
July 17, 1998
Complete Text of Report is available in PDF format
(228 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that the Food and Drug Administration (FDA)
does not have an effective process for handling citizen petitions in a timely
manner, as evidenced by a backlog of about 250 petitions that have not been
fully answered, some dating to the 1970's and early 1980's. Regulations require
responses to citizen petitions within 180 days. The backlog of pending petitions
includes issues that the petitioners believe are matters of public safety, and
some have requested FDA to ban or withdraw approval of certain products. In
situations where the FDA does not answer petitions in a timely manner, the public
may lose confidence in the regulatory process. Because the citizen petition
process is not a high priority at FDA, the agency has provided limited resources
to the process, and there is little central oversight of the process across
FDA program areas. The FDA generally concurred with our recommendations on actions
FDA should take to reduce the backlog and more effectively manage the process
for responding to citizen petitions.